                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
July 18, 2012

Report Number: A-07-11-06026

Ms. Susan E. Birch
Executive Director
Department of Health Care Policy and Financing
1570 Grant Street
Denver, CO 80203-1818

Dear Ms. Birch:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Colorado Did Not Always Identify or Prevent Excluded Providers
From Participating in the Medicaid Program. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Dan Bittner, Audit Manager, at (515) 284-4674, extension 23, or
through email at Dan.Bittner@oig.hhs.gov. Please refer to report number A-07-11-06026 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Susan E. Birch


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF

       INSPECTOR GENERAL





  COLORADO DID NOT ALWAYS

    IDENTIFY OR PREVENT

  EXCLUDED PROVIDERS FROM 

    PARTICIPATING IN THE

     MEDICAID PROGRAM





                       Daniel R. Levinson

                        Inspector General


                           July 2012

                         A-07-11-06026

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                 EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

CMS reimburses State Medicaid agencies based on the Federal medical assistance percentage for
claimed Medicaid expenditures, including Medicaid expenditures for items and services
furnished, ordered, or prescribed by providers enrolled in the State’s Medicaid program.

The U.S. Department of Health and Human Services, Office of Inspector General (OIG), under
Congressional mandate, established a program to exclude individuals and entities affected by
various legal authorities contained in sections 1128 and 1128A of the Act. The effect of an
exclusion (not being able to participate) is that no payment will be made by the Medicaid
program for any items and services furnished, ordered, or prescribed by an excluded individual
or entity. This payment prohibition applies to the excluded person, anyone who employs or
contracts with the excluded person, and any hospital or other provider where the excluded person
provides services. The exclusion applies regardless of who submits the claims and applies to all
administrative and management services furnished by the excluded person. There is a limited
exception to exclusions for the provision of certain emergency items or services not provided in
a hospital emergency room.

In Colorado, the Department of Health Care Policy and Financing (State agency) administers the
Medicaid program, in part by developing and maintaining internal controls. The State agency is
responsible for enrolling new providers and maintaining provider records for all Colorado
Medicaid provider types. Billing providers file Medicaid claims with the State agency.

For the period October 1, 2009, through September 30, 2010, the State agency claimed Federal
reimbursement for Medicaid expenditures totaling $3.4 billion ($2.1 billion Federal share).

OBJECTIVE

Our objective was to determine whether the State agency’s internal controls were adequate to
prevent Medicaid payments for any items and services furnished, ordered, or prescribed by an
excluded individual or entity for the period October 1, 2009, through September 30, 2010.

SUMMARY OF FINDING

The State agency did not have adequate internal controls to prevent all Medicaid payments for
items and services furnished, ordered, or prescribed by an excluded individual or entity.



                                             i
Although the State agency implemented internal controls to prevent Medicaid payments to
excluded individuals or entities, the controls did not address all of the excluded individuals or
entities that we identified on Medicaid claims. For the period October 1, 2009, through
September 30, 2010, the State agency made $12,747 ($7,851 Federal share) in unallowable
payments for items and services furnished, ordered or prescribed by excluded providers.

The State agency’s internal controls were designed to prevent a claim from being paid if an
attending or billing provider was an excluded provider. However, the State agency’s policies
and procedures did not always make provisions to prevent unallowable Medicaid payments for
items and services referred, rendered, or prescribed by excluded providers. Thus, the State
agency’s controls did not always prevent these items and services from being claimed for Federal
reimbursement. These limitations in the State agency’s internal controls could allow individuals
or entities to participate in the Medicaid program after they have been excluded, which could
undermine the safety and integrity of the program.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund $7,851 to the Federal Government for the unallowable Medicaid payments for
      items and services provided or prescribed by excluded individuals; and

   •	 strengthen internal controls to prevent excluded providers from participating in the
      Medicaid program, specifically by developing and implementing policies and procedures
      to ensure that payments are not made for any items and services furnished, ordered, or
      prescribed by an excluded individual or entity.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that it planned to implement.

The State agency’s comments are included in their entirety as the Appendix.




                                               ii
                                                            E OF CONTENTS



INTRODUCfiON.......................................................................................................................... l

          BACKGROUND ................................................................................................................. !
              Medicaid Program.................................................................................................... ]
              Excluded Providers .................................................................................................. !
              Colorado Medicaid Program ....................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. .3
               Objective ................................................................................................................. .3
               Scope .......................................................................................................................3
               Methodology ...........................................................................................................3

FINDING AND RECOMMENDATIONS ...................................................................................4

          UNALLOWABLE MEDICAID PAYMENTS ASSOCIATED WITH
            EXCLUDED PROVIDERS ............................................................................................5

          RECOMMENDATIONS .....................................................................................................6

          STATE AGENCY COM~NTS ........................................................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                 iii
                                      INTRODUCTION


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

CMS reimburses State Medicaid agencies based on the Federal medical assistance percentage
(FMAP) for claimed Medicaid expenditures, including Medicaid expenditures for items and
services furnished, ordered, or prescribed by providers enrolled in the State’s Medicaid program.

Excluded Providers

The U.S. Department of Health and Human Services, Office of Inspector General (OIG), under
Congressional mandate, established a program to exclude individuals and entities affected by
various legal authorities contained in sections 1128 and 1128A of the Act. The effect of an
exclusion (not being able to participate) is that no payment will be made by the Medicaid
program for any items and services furnished, ordered, or prescribed by an excluded individual
or entity. This payment prohibition applies to the excluded person, anyone who employs or
contracts with the excluded person, and any hospital or other provider where the excluded person
provides services. The exclusion applies regardless of who submits the claims and applies to all
administrative and management services furnished by the excluded person. There is a limited
exception to exclusions for the provision of certain emergency items or services not provided in
a hospital emergency room.

Federal regulations at 42 CFR § 1001 specify certain bases upon which OIG may, or in some
cases must, exclude individuals and entities from participation in Medicaid and other Federal
health care programs. Federal regulations at 42 CFR § 1002 specify the authority of State
agencies to exclude individuals and entities from participation in their respective Medicaid
programs.

To administer this program, OIG maintains a database of all currently excluded parties called the
List of Excluded Individuals/Entities (LEIE). In addition, CMS maintains a database called the
Medicare Exclusion Database (MED). Pursuant to a CMS State Medicaid Directors Letter dated
June 12, 2008, States should conduct searches monthly via the LEIE or the MED to capture
exclusions and reinstatements that have occurred since the last search.




                                                1

List of Excluded Individuals/Entities

The LEIE is a database that provides information about parties excluded from participation in
Medicare, Medicaid, and all other Federal health care programs. The LEIE is available on the
OIG’s website in two formats: an online search engine and a downloadable version of the
database. The online search engine identifies currently excluded individuals and entities. When
a match is identified, it is possible for the searcher to verify the accuracy of the match using the
Social Security Number (SSN) or Employer Identification Number (EIN). The downloadable
version of the database may also be compared against State agency provider enrollment files.
However, unlike the online search engine, the downloadable version of the database does not
contain SSNs or EINs.

Medicare Exclusion Database

In 2002, CMS developed the MED to collect and retrieve information that aided in ensuring that
no payments are made to excluded individuals and entities for services furnished during a
provider’s exclusion period. Two of the information sources used in populating the MED are the
LEIE and the Social Security Administration. MED files contain a variety of identifiable and
general information including name, SSN, EIN, and National Provider Identifier (NPI). CMS
provides the MED files to State Medicaid agencies every month.

Colorado Medicaid Program

In Colorado, the Department of Health Care Policy and Financing (State agency) administers the
Medicaid program, in part by developing and maintaining internal controls. The State agency is
responsible for enrolling new providers and maintaining provider records for all Colorado
Medicaid provider types. Billing providers file Medicaid claims with the State agency.

The State agency contracts the operations of the Medicaid Management Information System
(MMIS), a computerized payment and information reporting system that processes Colorado
Medicaid claims, to Affiliated Computer Services, Inc. (ACS). The State agency retains overall
responsibility for developing and maintaining internal controls to help administer the Medicaid
program. The State agency uses both the LEIE and the MED to help administer the State’s
Medicaid program.

For Federal fiscal year (FY) 2010 (October 1, 2009, through September 30, 2010), the State
agency claimed Federal reimbursement for Medicaid expenditures totaling $3.4 billion
($2.1 billion Federal share). The FMAP for Colorado’s Medicaid payments was 61.59 percent in
FY 2010.




                                                 2

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s internal controls were adequate to
prevent Medicaid payments for any items and services furnished, ordered, or prescribed by an
excluded individual or entity for the period October 1, 2009, through September 30, 2010.

Scope

Our review covered 26.6 million claim lines associated with 24.7 million Medicaid claims
totaling $3.4 billion ($2.1 billion Federal share) that the State agency paid for the period
October 1, 2009, through September 30, 2010. We did not review the overall internal control
structure of the State agency or the Medicaid program because our objective did not require us to
do so. Rather, we reviewed only the internal controls relevant to our audit objective.

We performed fieldwork at the State agency in Denver, Colorado, from October 2010 to
October 2011.

Methodology

To accomplish our objective, we:

        •	 reviewed applicable Federal laws, regulations, and guidance;

        •	 held discussions with State agency officials to gain an understanding of State agency
           policies, procedures, and guidance;

        •	 obtained the LEIE and MED databases (as of September 2010);

        •	 obtained the State agency’s Medicaid provider database;

        •	 identified the State Medicaid identification number for excluded providers by
           matching the MED 1 to the State agency’s Medicaid provider database using the
           provider’s SSN;

        •	 obtained the Medicaid claim-level detail information (for the Medicaid providers that
           matched to the MED) for claims that were paid by the State agency from October 1,
           2009, through September 30, 2010;



1
  We used the MED in our analysis because it contained SSNs and NPIs, both of which also appeared in the State
agency’s automated systems. The LEIE downloadable database did not contain SSNs or NPIs. We will separately
review whether the State agency was appropriately requiring provider identification numbers to be submitted and
whether the identification numbers that were submitted were valid.



                                                       3

        •	 matched the State Medicaid identification number and NPI associated with excluded
           providers with the Medicaid claim level detail information;

        •	 obtained and reviewed the supporting documentation for each claim for which the
           State agency had denied payment because a provider associated with the claim was
           excluded;

        •	 calculated the Medicaid payments that the State agency made during that provider’s
           exclusion period;

        •	 determined whether any of the excluded providers involved in the Medicaid payments
           had been granted waivers of their exclusion by OIG; and

        •	 discussed our findings with State agency officials on January 26, 2012.

We calculated the Federal share of the expenditures using the FMAP rate (61.59 percent) that
was in effect for the time period of our review. 2

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                               FINDING AND RECOMMENDATIONS

The State agency did not have adequate internal controls to prevent all Medicaid payments for
items and services furnished, ordered, or prescribed by an excluded individual or entity.
Although the State agency implemented internal controls to prevent Medicaid payments to
excluded individuals or entities, the controls did not address all of the excluded individuals or
entities that we identified on Medicaid claims. For the period October 1, 2009, through
September 30, 2010, the State agency made $12,747 ($7,851 Federal share) in unallowable
payments for items and services furnished, ordered or prescribed by excluded providers.

The State agency’s internal controls were designed to prevent a claim from being paid if an
attending or billing provider was an excluded provider. However, the State agency’s policies
and procedures did not always make provisions to prevent unallowable Medicaid payments for
items and services referred, rendered, or prescribed by excluded providers. 3 Thus, the State
2
  Although our audit period fell within the recession adjustment period (October 1, 2008, through December 31,
2010) within which, pursuant to the American Recovery and Reinvestment Act of 2009 (P.L. No. 111-5), States
received additional Medicaid funding based on temporary increases in their FMAPs, the State agency’s FMAP rate
did not change during our audit period.
3
  The “attending” provider is the physician having primary responsibility for the patient’s medical care and
treatment. This designation cannot be assigned to a group or clinic. For clients enrolled in the Primary Care
Physician (PCP) program, the “referring” provider is the primary care physician who referred the client to another
provider for services requiring a PCP referral. Finally, the “rendering” provider is the physician who actually


                                                         4

agency’s controls did not always prevent these items and services from being claimed for Federal
reimbursement. These limitations in the State agency’s internal controls could allow individuals
or entities to participate in the Medicaid program after they have been excluded, which could
undermine the safety and integrity of the program.

UNALLOWABLE MEDICAID PAYMENTS ASSOCIATED WITH
EXCLUDED PROVIDERS

Federal regulations (42 CFR § 1001.2) state: “Exclusion means that items and services
furnished, ordered or prescribed by a specified individual or entity will not be reimbursed under
Medicare, Medicaid and all other Federal health care programs until the individual or entity is
reinstated by the OIG.” (Italics in original.)

With respect to these reimbursements, or payments, 42 CFR § 1002.211(a) states:

        [N]o payment may be made by the State agency for any item or service furnished
        on or after the effective date specified in the notice by an excluded individual or
        entity, or at the medical direction or on the prescription of a physician who is
        excluded when a person furnishing such item or service knew, or had reason to
        know, of the exclusion.

The State agency did not always have adequate internal controls in place to prevent Medicaid
payments for items and services furnished, ordered, or prescribed by an excluded individual or
entity. As a result, for the period October 1, 2009, through September 30, 2010, the State agency
made $12,747 ($7,851 Federal share) in unallowable payments for items and services furnished,
ordered or prescribed by excluded providers.

For example, a physician’s license to practice medicine was suspended on September 21, 2007,
because the physician was accused of sexually assaulting two patients. On November 29, 2007,
the Colorado State Board of Medical Examiners referred the matter to the State Attorney General
for disciplinary proceedings. In addition, in May 2008 the same physician pleaded guilty to
Federal charges of dispensing anabolic steroids outside the course of professional practice. On
November 19, 2009, OIG excluded this physician from participation in Medicaid and other
Federal health care programs. Nevertheless, after the exclusion had taken effect (and most
recently in July 2010), the State agency paid four claims that listed this excluded physician as the
prescribing provider. The State agency paid these claims because its controls were not always
adequate to prevent payment of claims that listed an excluded prescribing provider.

The State agency’s internal controls were designed to prevent a claim from being paid if an
attending or billing provider was an excluded provider. However, the State agency’s policies
and procedures did not always make provisions to prevent unallowable Medicaid payments for
items and services referred, rendered, or prescribed by excluded providers. The internal controls,
through which the State agency sought to identify excluded providers and prevent them from
receiving payment for their Medicaid claims, used Medicaid identification numbers (which a

performed or rendered the billed services (however, the rendering provider may not necessarily be the provider who
bills for the services). As with “attending” provider, this designation cannot be assigned to a group or clinic.


                                                        5
State Medicaid agency assigns to a provider when that provider enrolls in the Medicaid program)
rather than NPI numbers. Because the State agency did not make a provision for the use of NPI
numbers in its internal controls, it could not consistently and accurately identify all of the
excluded providers that may have furnished, ordered or prescribed an item or service.
Furthermore, there were several instances in which a claim was paid because the State agency
did not update the provider’s enrollment status in a timely manner. These limitations in the State
agency’s internal controls could allow individuals or entities to participate in the Medicaid
program after they have been excluded, which could undermine the safety and integrity of the
program.

RECOMMENDATIONS

We recommend that the State agency:

      •	 refund $7,851 to the Federal Government for the unallowable Medicaid payments for
         items and services provided or prescribed by excluded individuals; and

      •	 strengthen internal controls to prevent excluded providers from participating in the
         Medicaid program, specifically by developing and implementing policies and procedures
         to ensure that payments are not made for any items and services furnished, ordered, or
         prescribed by an excluded individual or entity.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that it planned to implement. Specifically, the State agency said
that it would refund to the Federal Government the $7,851 (Federal share) identified in our first
recommendation.

With respect to our second recommendation, the State agency said that it would make system
and process changes as part of its implementation of the Affordable Care Act 4 Provider
Screening Rules, which it plans to complete by March 2016. The State agency added that it
would implement these rules as part of a re-procurement, currently in progress, of its Medicaid
Management Information System (MMIS) and fiscal agent services. The State agency said that
it expects the replacement MMIS to be operational by July 2016.

The State Agency’s comments are included in their entirety as the Appendix.




4
    The Patient Protection and Affordable Care Act, P.L. No. 111-148.


                                                          6

APPENDIX

                                                                                                                                                     Page 1 of2


                       APPENDIX: STATE AGENCY COMMENTS 




                    COLORADO DEPARTMENT OF HEALTH CARE POLICY & FINANCING
                    157(1 Grant street. Denver, CO 80203-1818 • (303) 86&2993 • (303) 866-+111 Fax • (303)866·3883 TTY
                    John w. HICkeotooper, ~mor • SUsan E. Birch MBA, BSN, RN, El<ecut!Ve Olrtctor




June 18, 2012


Patrick J, Cogley, Regional Inspector General for Audit Services
Office of the Inspector General
Office of Audit Services1 Region VI!
601 E. l21h St., Room 0429
Kansas City, MO 641 06


Mr. Cogley:

Please see the attached .document that contains the D(Wartment of Health Care Policy and
Financing's submission of reSponses to the draft report en~itled Colorado Did Not Always
lndentiJY or Prevent ExcludedProviders From Participating in.the Medicaid Progrom (Report
Number A-07-11-()6026).

If you have any questions or comments; please contact Kim Nguyen at 303-866-6575 or
kim.nguyen@state.co.us.




Susan E. Birch MBA, BSN, RN
Executive Director

SB:ktn

cc: 	 Kim Nguyen, Al!l.iit Trac~er and Analyst, Department of Health Care Policy and Financing
      .Greg Tanner, Controller, Deprutment of Health Care .Policy and Financing
      Dan Bittner, AuditManager, Office of Inspector General
      Michael Chacon, Senior Auditor, Office oflnspectbr General


Enclosure




"The ml"lon of lh• o.p.ultnenl uf Heahh c .... Polley "flnancln~ Is 10 lmpro"" •«~.. 1u cuot..troo:tlvo, 'I"'II!Y hoallo co~'""'"'" for ColoradaM•
                                                               <OIDrocfo.&O'/fh<pl
                                                                                                    Page 2 of2




                        Department of Health Care Polley and Financing's 

                                    Initl;d Response tl) the 

                           Department of. Health & Human Service$ 

                                 Office oflnspector General 

  Colorado Did Not A.lways ltlentifp or Prt!V(!nf;.Excluded Providers/rom Participating ill the 

                                      Medicaid Program 

                                Control Number A-07-11..06026 

                                          May2012 



RECOMMENDATIONS

We recommend that the State Agency:

    • refund $7,851 to. the Federal Government for the unallowable Medicaid payments
for items and services provided by excluded individuals.

Re.vpon.~e:   Concur.

The Department will utilize the ~preadsheet provided by the Office of the Inspector General
auditors which identifies excludedproviders showing as rendering or prescribing on claims, In
order to send demand letters by June 15, 2012/or repayment ofthose claims.

The Department will retum jederai financial participation in. the amount oj.$7,851 and Will
report this repayment on the CMS-64 for the quarter ending June 30, 2012.

We recommend that the State Agency:

   • strengthen internal controls to prevent excluded providers from participating in the
Medicaid programt specifically by developing and lmple.menting policie• and procedures to
ensure that payments are not made for any items and services. furnished. ordered, or
prescribed by an excluded Individual or entity.

Response: Concur.

l'he Department agrees that it is importqnt to prevent exclw:l.edproviders participating in the
Medicaid program.

The Department will make system and process c/:tanges to address this finding as part of its
implementation of the Affordable Care Act Provider Screening Rules, 42 CFR Parts 405, 424,
447 et al., specifically§ 45S.440. The rule requires that the State Medicaid agency require all
claims for payment for items and services that were ordered or referred to coT)tain the National
Provider /demifler (NP1) of the phystcim1 or other projesl!ional who ordered or referred such
items or services. The Deparfmqnt will implement these. rules ~ part ofa re-procurement ofits
MediCtM Man(lge.meM Information System (MM1S) ant( fiscal agent services. This re­
procurement is currently in progress and the replacement MMIS is expected to be operational by
July 2016, while the Department's implementa#pn of the Affordable Care Act Provider
Screening R.itle,Y will be ctmipleted by March 2016.     ·



                                           Page I ofl
